Inspector General, DoD, Oversight of the Air Force Audit Agency Audit of the FY 1998 Air Force General Fund Financial Statements
Department of Defense
Inspector General, DoD, Oversight of the Air Force Audit Agency Audit of the FY 1998 Air Force General Fund Financial Statements -- Report No. 99-095 (PDF)
Date: March 1, 1999
Our objective was to determine the accuracy and completeness of the Air Force Audit Agency audit of the FY 1998 Air Force General Fund Financial Statements.  See Appendix A for a discussion of the audit process.
The Air Force Audit Agency "Report of Audit:  Opinion on Fiscal Year 1998 Air Force Consolidated Fund Financial Statements," March 1, 1999, stated that the Air Force Audit Agency was unable to express an opinion on the reliability of the FY 1998 Air Force General Fund Financial Statements.  We concur with the Air Force Audit Agency disclaimer of opinion; our endorsement of that disclaimer is at Exhibit 1.  The Air Force Audit Agency report is at Exhibit 2.
Internal Control Structure and Compliance With Laws and Regulations.  The Air Force Audit Agency issued reports on internal controls and compliance with laws and regulations in the Air Force.  Those reports are included in the Air Force Audit Agency report.
Any comments or suggestions should be sent to: auditnet@dodig.mil